November 2, 2020

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re: Ohio Ex Rel. Elliot Feltner v. Cuyahoga County Board of Revision, et al.,
No. 20-567
Dear Mr. Harris:
I represent Petitioner, Elliot G. Feltner, in Ohio Ex Rel. Elliot Feltner v. Cuyahoga County
Board of Revision, et al.
In accordance with Rule 37.3(a) of the Rules of the Supreme Court of the United
States, Petitioner hereby grants blanket consent to the filing of amicus curiae briefs in
support of either or of neither party in this matter.
Sincerely,

CHRISTINA M. MARTIN
Counsel of Record for Petitioner
Senior Attorney
Pacific Legal Foundation

See attached service list

4440 PGA Boulevard, Suite 307 • Palm Beach Gardens, FL 33410 • plf@pacificlegal.org • 561.691.5000 • pacificlegal.org

The State ex rel. Elliot G. Feltner, Relator v.
Cuyahoga County, Ohio Board of Revision, et al.
No. 20-567
SERVICE LIST

Michael C. O'Malley
Prosecuting Attorney of Cuyahoga County, Ohio
Adam Jutte*
*Assistant Prosecuting Attorneys
The Justice Center
Courts Tower
1200 Ontario Street, 8th Floor
Cleveland, Ohio 44113
(216) 443-7758
momalley@prosecutor.cuyahogacounty.us
ajutte@prosecutor.cuyahogacounty.us
For respondents Cuyahoga County Ohio Board of Revision, Cuyahoga County, Ohio,
Armond Budish, Dennis G. Kennedy, Michael Gallagher, and W. Christopher
Murray II
Stephen W. Funk* (0058506)
*Counsel of Record
ROETZEL & ANDRESS, LPA
222 S. Main Street, Suite 400
Akron, Ohio 44308
(330) 376-2700
sfunk@ralaw.com
Counsel for Respondent Cuyahoga County Land Reutilization Corporation
David Yost
Ohio Attorney General
Benjamin M. Flowers
Ohio Solicitor General
Constitution.Mail@OhioAttorneyGeneral.gov
bflowers@ohioattorneygeneral.gov
30 E. Broad Street, 14th floor
Columbus, OH 43215

